Randall G. Stephens
P. 0. Box 20051
Cleveland, Ohio 44120

Re: In the Supreme Court of the United States
Randall G. Stephens vs. Dow Chemical Company

Supreme Court of the United States
1 First Street North East
Washington D. C., 20543
Attention: Clerk of Court

February 25, 2021

Dear Clerk of Court:

Enclosed please find the original and one copy of my Completion of Certification
of Service of the corrected Petition for Writ of Certiorari Limitation and Statement
of Limitation Motion Verifying Limitation. Please file the original with the Court
and stamp file the_ copy and return it to me at P. 0. Box 20051 Cleveland, Ohio
44120.

Thank you for your assistance and cooperation in this matter.

Randall G. Stephens

RECEIVED
MAR 2 - 2021

Mara5RSTIK

IN THE SUPREME COURT OF THE UNITED STATES
JANUARY TERM 2021

RANDALL G. STEPHENS,

COMPLETION OF CERTIFICATION OF

Petitioner,
vs.

SERVICE OF THE PETITION FOR
WRIT OF CERTIORARI LIMITATION

DOW CHEMICAL COMPANY,
Respondents.

AND STATEMENT OF LIMITATION
MOTION VERIFYING LIMITATION

No(s). 109722, 2020-0862

STATE OF OHIO
) SS:
COUNTY OF CUYAHOGA )
MOTION VERIFYING LIMITATION

I Randall G. Stephens, being of fully age and of sound mind, willfully and
voluntarily being first duly sworn and under oath depose and state by these
presents do make and constitute as follows:

Know all men and women by these presents: I Randall G. Stephens, further
depose and states I, am the Petitioner in this Completion of Service of the Petition
for Writ of Certiorari and Statement of Limitation, which is a accredit account of
Service by the United States Postal Service first class postage prepaid Priority Mail
Signature Requested, sent to all parties in good faith on January 21, 2021.

-2-

Now comes Petitioner Randall G. Stephens pursuant to Supreme Court Rule
14.5 which reads as follows:

SUPREME COURT RULE 14.5

"If the Court determines that a petition submitted timely and in good faith is in
a form that does not comply with this Rule or with Rule 33 or Rule 34, the Clerk
will return it with a letter indicating the deficiency. A corrected petition submitted
in accordance with Rule 29.2 no more than 60 days after the date of the Clerk's
letter will be deemed timely.

SUPREME COURT RULE 29.2

"A document is timely filed if it is received by the Clerk in paper form within the
time specified for filing; or if it is sent to the Clerk through the United States Postal
Service by first class mail (including express of priority mail), postage prepaid, and
bears a postmark, other than a commercial postage meter label, showing that the
document was mailed on or before the last day for filing; to a third-party
commercial carrier for delivery to the Clerk within 3 calendar days. If submitted by
an inmate confined in an institution, a document is timely filed if it is deposited in
the institution's internal mail system on or before the last day for filing and is
accompanied by a notarized statement or declaration in compliance with 28 U. S. C.
Section 1746 setting out the date of deposit and stating that first-class postage has
been prepaid. If the postmark is missing or not legible, or if the third-party

- 3-

commercial carrier does not provide the date the document was received by the
carrier, the Clerk will require the person who sent the document to submit a
notarized statement or declaration in compliance with 28 U. S. C. Section 1746
setting out the details of the filing and stating that the filing took place on a
particular date within the permitted time.

The following exhibits reveals that Petitioner Randall G. Stephens is in
compliance with Supreme Court Rule 14.5 and 29.2.

Exhibit Marked A-1 of two pages, letter from the Supreme Court of the United
States to Petitioner to correct his Petition for Writ of Certiorari, dated December 14,
2020.

Exhibit Marked A-2 one page, receipt from the United States Postal Service,
dated January 21, 2021 when Petitioner placed his corrected Petition for Writ of
Certiorari Limitation and Statement of Limitation, in the care of, first class postage
prepaid Priority Mail Signature Requested to all parties.

Exhibit Marked A-3 of three pages, United States Postal Service Tracking
Number 9510816018161021324153, dated January 29, 2021 day of delivery to the
Supreme Court of the United States, of Petitioner's corrected Petition for Writ of
Certiorari Limitation and Statement of Limitation, signed by J. Kouros.

-4-

Exhibit Marked A-4 of three pages, United States Postal Service Tracking
Number 9510816018161021324139, dated February 9, 2021 day of delivery to the
Department of Justice, to the United States Attorney General, of Petitioner's
corrected Petition for Writ of Certiorari Limitation and Statement of Limitation,
signed by E. Anderson.

Exhibit Marked A-5 of two pages, United States Postal Service Tracking Number
9510816018161021324092, dated January 27, 2021 day of delivery to the Office of
the Ohio Attorney General, of Petitioner's corrected Petition for Writ of Certiorari
Limitation and Statement of Limitation, signed by J. Anderson.

Exhibit Marked A-6 of two pages, United States Postal Service Tracking Number
9510816018161021324146, dated January 29, 2021 day of delivery to the Court of
Common Pleas County of Cuyahoga, Ohio, of Petitioner's corrected Petition for Writ
of Certiorari Limitation and Statement of Limitation, signed by Clerk, Court of
Common Pleas.

Exhibit Marked A-7 two pages, United States Postal Service Tracking Number
9510816018161021324115, dated January 29, 2021 day of delivery to Zashin & Rich
Labor and Employment Law Firm, Attorneys for Respondents Dow Chemical
Company, of Petitioner's corrected Petition for Writ of Certiorari Limitation and
Statement of Limitation, signed by J. Taylor.

All parties received Petitioner's corrected Petition for Writ of Certiorari

-5-

Limitation and Statement of Limitation, before or 57 days after the letter from the
Supreme Court of the United States, which is within the 60 day limitation of
Supreme Court Rule 14.5.

This Completion of Certification of Service of the Petition for Writ of Certiorari
Limitation and Statement of Limitation Motion Verifying Limitation, was Executed
within the United States, its territories, possessions, and commonwealths: I declare
under penalty of perjury that the foregoing instrument is the truth the whole truth
and nothing but the truth and correct so help me God.

Executed in good faith on this Twenty Fifth (25th-) day of February 2021 A. D.

Affiant further sayeth naught.

February 25, 2021 A. D.

Respectfully submitted by,

Randall G. Stephens,
Affiant
P. 0. Box 20051
Cleveland, Ohio 44120
(216) 536-1052

Sworn to and Subscribed Before me in and for said County of Cuyahoga and
State of Ohio on this Twenty Fifth (25th-) day of February 2021 A. D., have

-6-

hereunto subscribed my name below and caused the Great Seal of the State of Ohio
to be affixed on this instrument.

My Commission Expires

I

.

CARUN E. McNARY NOTARY
ln and the State of Oie
-Recorded in
Cuyahoga C6enly
._
%rttitgliapnnExpires 5-19=2024

Seal)),

( Notary Signature )

CERTIFICATION OF SERVICE

The original and one copy of my Completion of Certification of Service of the
Petition for Writ of Certiorari Limitation and Statement of Limitation Motion
Verifying Limitation, was placed in the care of the Federal Express, First Class
Priority Mail Tracking Insured Signature Requested postage prepaid addressed to
the United States Supreme Court 1 First Street North East Washington D. C.,
20543 Attention Clerk of Court this Twenty Fifth (25th.) day of February 2021 A. D.

One copy of my Completion of Certification of Service of the Petition for Writ of
Certiorari Limitation and Statement of Limitation Motion Verifying Limitation,
was placed in the care of the Federal Express, First Class Priority Mail Tracking
Insured Signature Requested postage prepaid addressed to the Court of Common
Pleas Cuyahoga County, Ohio 1200 Ontario Street Cleveland, Ohio 44113 to the
attention of the Clerk of Court, this Twenty Fifth (25th.) day of February 2021 A. D.

-7-

One copy of my Completion of Certification of Service of the Petition for Writ of
Certiorari Limitation and Statement of Limitation Motion Verifying Limitation,
was placed in the care of the Federal Express, First Class Priority Mail Tracking
Insured Signature Requested postage prepaid addressed to the United States
Department of Justice, 950 Pennsylvania Avenue, North West Washington D. C.,
20530-0001 to the attention of the United States Attorney General William Barr,
This Twenty Fifth (25th.) day of February 2021 A, D.

One copy of my Completion of Certification Service of the Petition for Writ of
Certiorari Limitation and Statement of Limitation Motion Verifying Limitation,
was placed in the care of the Federal Express, First Class Priority Mail Tracking
Insured Signature Requested postage prepaid addressed to the Ohio Attorney
General Dave Yost, 150 Gay Street 21st. Floor Columbus, Ohio 43215 to the
attention of Timothy X. McGrail, this Twenty Fifth (25th.) day of February 2021 A. D.

One copy of my Completion of Certification of Service of the Petition for Writ of
Certiorari Limitation and Statement of Limitation Motion Verifying Limitation,
was placed in the care of the Federal Express, First Class Priority Mail Tracking
Insured Signature Requested postage prepaid addressed to the Zashin & Rich Labor
and Employment Law Firm 950 Main Avenue 4th. Floor Cleveland, Ohio 44113 to
the attention of Attorney Jeffrey J. Wedel, Lead Attorney for the Respondents Dow
Chemical Company, this Twenty Fifth (25th.) day of February 2021 A. D.

-8-

February 25, 2021 A. D.

Respectfully submitted by,

Randall G. Stephens,
Petitioner Pro se
P. 0. Box 20051
(216) 536-1052

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
December 14, 2020
Randall G. Stephens
P.O. Box 20051
Cleveland, OH 44120
RE: Stephens v. Dow Chemical Co.
No(s). 109722, 2020-0862
Dear Mr. Stephens:
Returned are 40 petitions and related papers in the above-entitled case postmarked on
November 23, 2020 and received on December 2, 2020, which fails to comply with the
Rules of this Court.
Your filing is styled both as a petition for an unspecifed extraordinary writ and as a
petition for writ of certiorari. It may not be both. These are different kinds of
filings. Please specify.
Paid submissions must include a check or money order in the amount of $300.
In light of the order of this Court filed April 15, 2020, you may return a single copy
of your corrected petition on 8 1/2 by 11 inch paper.
Kindly correct the petition so that it complies in all respects with the Rules of this
Court and return it to this Office promptly so that it may be docketed. Unless the
petition is submitted to this Office in corrected form within 60 days of the date of this
letter, the petition will not be filed. Rule 14.5.
A copy of your petition must be served on opposing counsel.
When making the required corrections to a petition, no change to the substance of the
petition may be made.

17c/l/

/ 14 4

o

((J7
WO //4c( 5

You must submit a certificate stating that the petition complies with the word
limitation. The certificate must state the number of words in the document and must be
separate from the petition. Rule 33.1(h). If the certificate is signed by a person other
than a member of the Bar of this Court, the counsel of record, or the unrepresented
party, it must contain a notarized affidavit or declaration in compliance with 28 USC
1746.

Sincerely,
Scott S. Harris, Clerk
By!

(202) 479-3025

"Trel<CP
,&/

Enclosures

a 7 r tAto 4ce-s• 67 7- v\4z5

UNITED STAM_
Ar-aii POSTAL SERVICE
SHAKER HEIGHTS
3675 WARRENSVILLE CENTER RD
CLEVELAND, OH 44120-5200
(800)275-8777
01:10 PM
01/21/2021
Product

Qty Unit Price
Price

Priority Mail® 2-Day 1
Columbus, OH 43215
Weight: 0 lb 5.10 oz
Expected Delivery Date
Mon 01/25/2021
Tracking #:
9510 8160 1816 1021 3240 92
Insurance
Up to $50.00 included
Signature
Confirm

$7.50

$0.00
$3.15

$10.65
Total41:10
$7.50
Priority Mdile 1-Cu, 1
Cleveland, OH 44113
Weight: 0 lb 5.20 oz
Expected Delivery Date
Fri 01/22/2021
Tracking #:
9510 8160 1816 1021 3241 15
$0.00
Insurance
Up .o $50.00 included
$3.15
Signature
Confirm
$10.65
Total
$7.85
Priority Mail® 2-Day 1
Washington, DC 20053
Weight: 0 lb 5.20 oz
ExOacted Delivery Date
Mon 01/25/2021
Tracking #:
9510 8160 1816 1021 3241 39
$0.00
Insurance
Up to $50.00 included
$3.15
Signature Confirm
$11.00
Total
Priority M3!lo 1-Uay 1
Cleveland, OH 44113
Weight: 0 lb 5.20 oz
Expected Delivery Date
Fri 01/22/2021
Tracking #:
9510 8160 1816 1021 3241 46
Insurance
Up to $50.00 included
Signature
Confirm
Total
Priority Mail® 2-Day 1
Washington, DC 20543
Weight: 0 lb 9.80 oz
Expected Delivery Date
Mon 01/25/2021
Tracking #:
9510 8160 1816 1021 3241 53
Insurance
Up to $50.00 in, luded
..
Signatu,
Confirm
Total
Money Order
Serial#: 27157740491
Money Order Fee

$7.50

$0.00
$3.15
$10.65
$7.85

$0.00
$1.1m
$11.00
$25.00
$1.25
$26.25

uoro.uoi

1%& - 4..101'J

iracKingtv Kes u its

USPS Tracking®

FAQs >

Track Another Package +

Remove X

Tracking Number: 9510816018161021324153

Your item was delivered at 10:52 am on January 29, 2021 in WASHINGTON, DC 20543 to
SUPREME COURT 20543. The item was signed for by J KOUROS.
USPS Tracking PlusTM Available N./

m

G
, Delivered

0.
CD

January 29, 2021 at 10:52 am
Delivered
WASHINGTON, DC 20543
Get Updates \,/

Text & Email Updates

\./

Proof of Delivery

\

Tracking History

January 29, 2021, 10:52 am
Delivered
WASHINGTON, DC 20543
Your item was delivered at 10:52 am on January 29, 2021 in WASHINGTON, DC 20543 to SUPREME
COURT 20543. The item was signed for by J KOUROS.

44,14f<e- f7
January 29, 2021, 10:43 am
Available for Pickup

/9- 3 Pi cc' 6A/

fidc6 5'

https://tools.usps.com/gofTrackConfirmAction?tRef=fullpage&tLc=2&text28777=&tLabels=9510816018161021324153%2C

locv • •••••••••••••

WASHINGTON, DC 20543

January 29, 2021, 7:52 am
Arrived at Post Office
WASHINGTON, DC 20018

January 29, 2021, 5:13 am
Arrived at USPS Facility
WASHINGTON, DC 20022

January 29, 2021, 2:49 am
Departed USPS Regional Facility
WASHINGTON DC DISTRIBUTION CENTER

January 28, 2021
In Transit to Next Facility

-n
CD
CD

January 27, 2021, 9:47 am
Departed USPS Facility
HYATTSVILLE, MD 20785

CT
0

January 27, 2021, 9:24 am
Arrived at USPS Regional Facility
WASHINGTON DC DISTRIBUTION CENTER

January 26, 2021, 11:52 am
Arrived at USPS Facility
HYATTSVILLE, MD 20785

January 26, 2021, 4:50 am
Departed USPS Regional Facility
WARRENDALE PA DISTRIBUTION CENTER

January 24, 2021, 4:34 pm
Arrived at USPS Regional Origin Facility
WARRENDALE PA DISTRIBUTION CENTER

3

yv v

https://tools.usps.com/go/TrackConfirmAction/tReMullpage&tLc=2&text28777=8aLabels=9510816018161021324153%2C

E,

2/3

.

January 21, 2021, 1:08 pm
USPS in possession of item
CLEVELAND, OH 44120

USPS Tracking PIusTM

Product Information

See Less "

Can't find what you're looking for?
Go to our FAQs section to find answers to your tracking questions.
CD

0
a)

FAQs

//id/ r /mg ,Ist/

/ 9- 3 ,c), 6 4.="

/4''

771 ie

C

https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=2&text28777=MLabels=9510816018161021324153%2C

3/3

USPS Tracking®

FAQs >

Track Another Package +

Tracking Number: 9510816018161021324139

Remove X

Your item was delivered at 4:54 am on February 9, 2021 in WASHINGTON, DC 20530 to JUSTICE
20530. The item was signed for by E ANDERSON.
USPS Tracking Plusrm Available N.,

CD

Delivered

Q.
cr
Q

February 9, 2021 at 4:54 am
Delivered
WASHINGTON, DC 20530

0

Get Updates \/

Text & Email Updates

\./

Proof of Delivery

\./

Tracking History

February 9, 2021, 4:54 am
Delivered
WASHINGTON, DC 20530
Your item was delivered at 4:54 am on February 9, 2021 in WASHINGTON, DC 20530 to JUSTICE 20530.
The item was signed for by E ANDERSON.

4-xit//61r
February 8, 2021,10:25 am
Available for Pickup

g-c/

7/v A-eD

6/4‘7 aC 7//,c--

https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=28,text28777=8,thabels=9510816018161021324139%2C

6'6=-5
1/3

-

• cavnit

ISPOUlt*

WASHINGTON, DC 20530

February 8, 2021, 7:20 am

Arrived at Post Office
WASHINGTON, DC 20018

February 7, 2021, 7:14 am

Departed USPS Regional Destination Facility
WASHINGTON DC DISTRIBUTION CENTER

February 6, 2021, 7:08 am

Arrived at USPS Regional Destination Facility
WASHINGTON DC DISTRIBUTION CENTER

February 5, 2021, 5:46 pm

Arrived at USPS Regional Destination Facility
WASHINGTON DC DISTRIBUTION CENTER
co
co
Q
February 3, 2021, 4:49 am

a)

C)

Departed USPS Regional Destination Facility
WASHINGTON DC DISTRIBUTION CENTER

February 3, 2021, 4:42 am

Arrived at USPS Regional Destination Facility
WASHINGTON DC DISTRIBUTION CENTER

January 31, 2021

In Transit to Next Facility

January 27, 2021, 6:26 am

Arrived at USPS Regional Destination Facility
WASHINGTON DC NETWORK DISTRIBUTION CENTER

7,14,A-cro

January 26, 2021, 9:26 am

Arrived at USPS Facility
HYATTSVILLE, MD 20785 "

c,6-

0

fi rht

https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=2&text28777=&tLa bels =9510816018161021324139%2C

jax c6-, 5

2/3

January 26, 2021, 3:42 am
Departed USPS Regional Facility
WARRENDALE PA DISTRIBUTION CENTER

January 24, 2021, 4:35 pm
Arrived at USPS Regional Origin Facility
WARRENDALE PA DISTRIBUTION CENTER

January 21, 2021, 1:07 pm
USPS in possession of item
CLEVELAND, OH 44120

USPS Tracking PIusTM

N./

Product Information

N./

See Less /\

Can't find what you're looking for?
Go to our FAQs section to find answers to your tracking questions.

FAQs

/).-4/

/04c-6- -

77-brec ia,ice- 5

https://tools.usps.com/goiTrackConfirmAction?tRef=fullpage&thc=2&text28777=8ALabels=9510816018161021324139%2C

USPS Tracking®

FAOs

Track Another Package +

Remove X

Tracking Number: 9510816018161021324092

Your item was delivered at 7:14 am on January 27, 2021 in COLUMBUS, OH 43216. The item was
signed for by J ANDERSON.
USPS Tracking Plus Available Nr

-n

Delivered

CD
Cr

a)

January 27, 2021 at 7:14 am
Delivered
COLUMBUS, OH 43216

Get Updates \./

Text & Email Updates

Proof of Delivery

Tracking History

January 27, 2021, 7:14 am
Delivered
COLUMBUS, OH 43216
Your item was delivered at 7:14 am on January 27, 2021 in COLUMBUS, OH 43216. The item was signed
for by J ANDERSON.

b-x ///i; r
January 27, 2021, 6:10 am /4-J
Out for Delivery

P/4C c /t/

0

F r VS/ 0 )44 C 6 5

https://tools.usps.corrligO/TraCkCOnfirmAction7tReMullpage&tLev-28itext28777=8aLabels=9510816018161021324092%2C8AABWalse

1/13

vv.

IQ; - VJf J I i MAU lyvai rcesuas

COLUMBUS, OH 43215

January 27, 2021, 3:14 am
Arrived at Post Office
COLUMBUS, OH 43216

January 26, 2021, 5:47 am
Departed USPS Regional Facility
COLUMBUS OH DISTRIBUTION CENTER

January 25, 2021, 11:59 pm
Arrived at USPS Regional Facility
COLUMBUS OH DISTRIBUTION CENTER

January 25, 2021, 8:39 pm
Departed USPS Regional Facility

WARRENDALE PA DISTRIBUTION CENTER
-n
co
0.
cr
to

January 25, 2021
In Transit to Next Facility

January 24, 2021, 4:34 pm
Arrived at USPS Regional Origin Facility
WARRENDALE PA DISTRIBUTION CENTER

January 21, 2021, 1:04 pm
USPS in possession of item
CLEVELAND, OH 44120

4~X /i/ 8 / /1

P

"i9cc- 716/6

t=-- "fl(c/

C c= 5—

USPS Tracking PlusTm

Product Information

See Less /\

https://tools.usps.com/goffrackConfirmAction7tRef=fullpage&tLc=2&text28777=laLa bels=9510816018161021324092%2C&tABt=fa Ise

2/3

raVIVAVO C111U IVICIII

USPS
US Postal Service
www.usps.com (hftps://www.usps.corni)

9510816018161021324146
Example: 92001902485321000034678291
9510816018161021324146
r> X

Mailboxes.com
Buy Mailboxes Factory Direct from Salsbury Industries - Mailboxes.com

mailboxes.com

Add package title
USPS

29 Jan 2021
09:55

Delivered. Your item was delivered at 9:55 am on January 29, 2021 in CLEVELAND, OH 44113. The item was
signed for by C CCOMMON PLEAS.
CLEVELAND, OH 44113
USPS

29 Jan 2021
06:10

Out for Delivery
CLEVELAND, OH 44113

USPS

29 Jan 2021
03:20

Arrived at Post Office
CLEVELAND, OH 44101

USPS

28 Jan 2021
05:30

Departed USPS Regional Facility

28Jan 2021

Arrived at USPS Regional Facility

CLEVELAND OH DISTRIBUTION CENTER

USPS

04:53

CLEVELAND OH DISTRIBUTION CENTER

VSPS

27 Jan 2021
22:12

27Jan 2021
00:00

Departed USPS Regional Facility
PITTSBURGH PA NETWORK DISTRIBUTION CENTER

In Transit to Next Facility

G
1, 0

ni4/e/tderV
Ai Cr 6

USPS

Tv1.0
Uses

25 Jan 2021
21:10

Arrived at USPS Regional Facility
PITTSBURGH PA NETWORK DISTRIBUTION CENTER

https://parcelsapp.com/en/tracking/9510816018161021324146

' 24 Jan 2021
16:36

USPS

Arrived at USPS Regional Facility
WARRENDALE PA DISTRIBUTION CENTER

USPS

21 Jan 2021

USPS in possession of item

13:08

CLEVELAND, OH 44120

Tracking number

9510816018161021324146

To

CLEVELAND, OH

Destination

United States

Found in

USPS (/en/carriers/usps)

Tracked with couriers

USPS (/en/carriers/usps)

Postal Product

Priority Mail®

Feature

Insured

Feature

Signature ConfirmationTM

ZIP Code

44113

Days in transit

7

Tracking link
https://parcelsapp.com/en/tracking/9510816018161021324146

C

Bookmark this page to track parcels faster!

cc- r

0

$4c-,5

,/v 6- 5-

Share to WhatsApp

(whatsapp://send?text=Tracking 9510816018161021324146
https://parcelsapp.com/en/tracking/9510816018161021324146)

Share to Viber

(viber://forward?text=Tracking 9510816018161021324146
https://parcelsapp.com/eNtracking/9510816018161021324146)

Share to Telegram

(http://t.me/share?text=Tracking
9510816018161021324146&url=https://parcelsapp.com/en/tracking/9510816018161021324146)

Track with official websites
(https://tools.usps.com/go/TrackConfirmAction?
tRef=fullpage&thc=2&text28777=&tLabels=9510816018161021324146%2C&tABt=false)

USPS

USPS Tracking Package and Mail
The United States Postal Service is an independent agency of the United States federal government responsible for
providing postal service in the United States. It is one of the few government agencies explicitly authorized by the
United States Constitution.
US Post tracking package is easy as explained in sections below. Remember, no matter which tracking number you have, you
can always track it with our universal postal tracker,

Track now to get estimated delivery time (ETA) window for your package based on delivered package statistics to your
zipcode/state.
https://parcelsapp.com/en/tracking/9510816018161021324146

2/23

USPS Tracking®

FAQs >

Track Another Package +

Remove X

Tracking Number: 9510816018161021324115

Your item was delivered at 1:05 pm on January 29, 2021 in CLEVELAND, OH 44113. The item was
signed for by J TAYLOR.
USPS Tracking Plus Available N.,

Delivered
January 29, 2021 at 1:05 pm
Delivered
CLEVELAND, OH 44113

Get Updates \/

Text & Email Updates

N./

Proof of Delivery

N/

Tracking History

ieoeffr //7

e-c

January 29, 2021,1:05 pm

rieilo /°/.9 G 6-,5
6
/9-7 /046- e
Delivered
CLEVELAND, OH 44113
Your item was delivered at 1:05 pm on January 29, 2021 in CLEVELAND, OH 44113. The item was signed
for by J TAYLOR.

January 29, 2021, 6:10 am
Out for Delivery
https://tools.usps.com/go/TrackConfirmAction7tRef=fullpage&thc=28itext28777=8aLabels=9510816018161021324115%2C

1/3

CLEVELAND, OH 44113

January 29, 2021, 3:21 am

Arrived at Post Office
CLEVELAND, OH 44101

January 28, 2021, 5:30 am

Departed USPS Regional Facility
CLEVELAND OH DISTRIBUTION CENTER

January 28, 2021, 4:53 am

Arrived at USPS Regional Facility
CLEVELAND OH DISTRIBUTION CENTER

January 27, 2021, 10:12 pm
Departed USPS Regional Facility
PITTSBURGH PA NETWORK DISTRIBUTION CENTER

January 27, 2021

In Transit to Next Facility

January 25, 2021, 9:10 pm

Arrived at USPS Regional Facility
PITTSBURGH PA NETWORK DISTRIBUTION CENTER

January 24, 2021, 4:36 pm

Departed USPS Regional Facility
WARRENDALE PA DISTRIBUTION CENTER

January 24, 2021, 4:35 pm

Arrived at USPS Regional Facility
WARRENDALE PA DISTRIBUTION CENTER

January 21, 2021, 1:04 pm

7( hifef
-7

"9/e/r

Cc Tyra a 1-7 riA/ 0

USPS in possession of item
CLEVELAND, OH 44120

https://tools.usps.com/go/TrackConfirmAction?tRef=fullpage&tLc=2&text28777=&tLabels =9510816018161021324115%2C

2/3

